                                     News From
                           The Office of Inspector General
                       Corporation For National And Community Service




EDUCATION AWARD SCAM LANDS MAN IN FEDERAL PRISON

WASHINGTON (March 18, 2005) – A former Georgia AmeriCorps member who
fraudulently converted his education award to pay for an automobile has been sentenced
to a year in Federal prison following an investigation by the Office of Inspector General
(OIG), Corporation for National and Community Service (Corporation).

In 2002, Christopher Lewis, of Augusta, knowingly prepared and submitted an education
award claim voucher to the Corporation that fraudulently identified an Augusta auto
dealership as the holder of his education loan. The claim resulted in a $2,362.50 partial
education award check being issued by the Corporation to the dealership, which applied
the funds to Lewis’ auto loan. In 2003, Lewis submitted another fraudulent voucher to the
Corporation which sought to send the balance of his education award, totaling $2,362.50,
to another Augusta auto dealership to pay a loan on another vehicle. That education
award claim was blocked by Corporation officials, who alerted OIG investigators.

Lewis, who admitted his fraud and attempted fraud to OIG investigators, was prosecuted
by the United States Attorney’s Office for the Southern District of Georgia for theft of
Federal funds. On March 8, 2005, he was sentenced in Federal District Court to one year
in Federal prison, to be followed by one year of supervised probation. Lewis was also
ordered to make restitution of $2,362.50 to the Corporation, to perform 80 hours of
community service, and was assessed $25 in court fees.

The Corporation’s education award program, which uses taxpayer funds drawn from its
National Service Trust, is designed to assist AmeriCorps members in paying for their
higher education or in retiring their existing college loans. Funds are paid directly to
either the member’s school or to the lender-holder of his or her outstanding student loan.
Members may not covert education award funds for personal or any other non-
educational uses.

To qualify for an education award, AmeriCorps members must have successfully
completed a term of service. The full award, totaling $4,750, is made to members who
have completed a minimum of 1,700 verified service hours. Partial education awards are
made to members with fewer verified service hours.
